No.19-349
INTHE

�upreme q[:ourt of tbe Wniteb �tates
SWISHER INTERNATIONAL, INC.,

Petitioner,

v.
TRENDSE'ITAH USA, INC. AND TREND SETTAH, INC.,

Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court
and that, pursuant to Rule 33.l(h) of the Rules of this Court, the Brief in
Opposition complies with the type-volume limitations of Rule 33.l(g). Exclusive of
the exempted portions identified in Rule 33. l(d), the brief contains 839 words. (The
undersigned is relying on the word-count utility in Microsoft Word 2016, the wordprocessing system used to prepare the brief, consistent with Rule 33.l(d).)

